OFFICE OF AUDIT
REGION IV
REGION LOCATION: Atlanta, Georgia




       The Jefferson Parish Housing Authority
      Marrero, LA, Violated Federal Regulations




AUDIT REPORT NUMBER: 2012-AO-1002           July 30, 2012
                                                        Issue Date: July 30, 2012

                                                        Audit Report Number: 2012-AO-1002




TO:            Cheryl J. Williams, Director, Office of Public Housing, 6HPH
               Craig Clemmensen, Director, Departmental Enforcement Center, CACB

               //signed//
FROM:          Nikita N. Irons, Deputy Regional Inspector General for Audit, Atlanta Region,
               4AGA

SUBJECT:       The Jefferson Parish Housing Authority, Marrero, LA, Violated Federal
               Regulations

    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the Jefferson Parish Housing Authority
procurement and expenditure activities.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
504-671-3710.




                                                  
                                          Date of Issuance: July 30, 2012
                                          The Jefferson Parish Housing Authority Violated
                                          Federal Regulations




Highlights
Audit Report 2012-AO-1002


 What We Audited and Why                    What We Found

We audited the Jefferson Parish           The Authority did not always comply with Federal
Housing Authority as part of our annual   procurement regulations or ensure that its expenditures
audit plan to review public housing       were eligible and supported. Specifically, it (1) did not
programs. Our objective was to            always follow Federal procurement and other
determine whether the Authority           requirements for its accounting, legal, and auditing
operated in accordance with the U.S.      services; (2) could not support disbursements made for
Department of Housing and Urban           security services, a grant coordinator, and credit card
Development’s (HUD) and other             purchases and paid for ineligible credit card purchases;
requirements. Specifically, we wanted     (3) made ineligible payments to its commissioners; and
to determine whether the Authority (1)    (4) created a conflict of interest when it made
complied with procurement                 payments to a State legislator’s company. These
requirements and (2) ensured that its     conditions occurred because the Authority did not
expenditures were eligible and            understand or follow Federal regulations or its
supported.                                procurement policy, did not have adequate
                                          procurement or accounting policies and procedures or
 What We Recommend                        proper internal controls, and disregarded HUD
                                          guidance. As a result, it (1) incurred $202,114 in
                                          ineligible and $453,793 in unsupported costs and (2)
We recommend that the HUD’s               could not provide reasonable assurance that HUD
Director of Public Housing require the    funds were used effectively and efficiently or to fully
Authority to (1) repay $202,114 in        benefit program participants and were protected from
ineligible costs; (2) support or repay    fraud, waste, and abuse.
$453,793; (3) develop and implement
proper internal controls; (4)
immediately stop using funds for
prohibited costs; and (5) provide
training to Authority employees. We
also recommend that the Director of the
Departmental Enforcement Center, in
coordination with the Director of the
Office of Public Housing, take
appropriate administrative sanctions
against the Authority’s executive
director and board members for
violating HUD requirements.



                                                 
                            TABLE OF CONTENTS


Background and Objectives                                                         3

Results of Audit
      Finding 1: The Authority Did Not Always Follow Federal and Other            4
      Requirements for Its Accounting, Legal, and Auditing Services
      Finding 2: The Authority Used More Than $280,000 in Federal Funds           12
      For Unsupported and Ineligible Costs
      Finding 3: The Authority Violated Federal Law When It Paid More             17
      Than $100,000 to Its Board Members
      Finding 4: The Authority Created a Conflict of Interest When It Paid More   20
      Than $90,000 to a State Legislator’s Company

Scope and Methodology                                                             23

Internal Controls                                                                 25

Appendixes
A.    Schedule of Questioned Costs                                                27
B.    Auditee Comments and OIG’s Evaluation                                       28
C.    Summary of Payments to Diversified Ventures                                 70
D.    Summary of Questioned Costs                                                 72
E.    Summary of Board Member Payments                                            73




                                            2
                     BACKGROUND AND OBJECTIVES

The Jefferson Parish Housing Authority was created by a resolution of the Police Jury of
Jefferson Parish and established by State statute. The Authority is a public housing agency
located at 1718 Betty Street, Marrero, LA, and manages 200 public housing units, 100
apartments, and 4,663 Section 8 vouchers. The mission of the Authority is to promote adequate
and affordable housing, economic opportunity, and a suitable living environment free from
discrimination. The Authority is governed by a nine-member board of commissioners appointed
by council members from the representative Jefferson Parish districts. The executive director is
responsible for providing oversight and administrative supervision of the Authority’s daily
activities. The current executive director was formerly the board chairman.

The Authority manages the low-income housing program under the provisions of a consolidated
annual contributions contract. This contract between the Authority and the U.S. Department of
Housing and Urban Development (HUD) requires the Authority to provide low-income housing
to eligible residents. HUD provides funds for the operation and maintenance of its low-income
program. The Authority has one project-based program, Jefferson Place Apartments, which
consists of 16 units on Carmedelle Street. The Authority has a nonprofit component unit,
Residential Housing Development Corporation, the board members of which are appointed by
the Authority. The purpose of the Residential Housing Development Corporation is to acquire,
develop, and foster the improvement of dwelling units for the benefit of certain qualified
recipients.

For fiscal years 2009 through 2011, HUD allocated more than $81.1 million in Section 8 voucher
funding. In addition, in fiscal years 2009 through 2011, HUD authorized the Authority to
receive more than $1.8 million in operating subsidies and $869,230 in Public Housing Capital
Fund program funds.

The public housing operating and Capital Fund programs are authorized under Section 9 of the
United States Housing Act of 1937 as amended. The funds are provided to assist public housing
agencies in the operation and management, financing, modernization, and development of public
housing.

Our objective was to determine whether the Authority operated in accordance with HUD’s and
other requirements. Specifically, we wanted to determine whether the Authority (1) complied
with procurement requirements and (2) ensured that its expenditures were eligible and supported.




                                               3
                                               RESULTS OF AUDIT


Finding 1: The Authority Did Not Always Follow Federal and Other
Requirements for Its Accounting, Legal, and Auditing Services
The Authority did not always follow Federal and other requirements for its accounting, legal, and
auditing services contracts. Specifically, it could not support the cost reasonableness of its
accounting and legal services contracts, did not maintain adequate documentation to support
disbursements to its legal services contractor, and did not (1) use the proper procurement
method, (2) execute complete bid packages and contracts, (3) maintain required contract
documentation, or (4) renew contracts before the expiration date. These conditions occurred
because the Authority did not always understand or follow Federal requirements, follow its own
procurement and accounting policies, and did not have adequate policies or proper internal
controls. As a result, payments totaling $176,827 were unsupported.



    Cost Reasonableness Was Not
    Supported

                     Of the three contracts reviewed, the Authority could not support the cost
                     reasonableness for two. Specifically, it did not complete independent cost
                     estimates, obtain adequate competition, receive HUD approval, and conduct
                     adequate cost analyses. Federal procurement regulations1 required the Authority
                     to comply with Federal cost principles2, which state that a cost must be necessary
                     and reasonable for the proper and efficient performance and administration of
                     Federal awards. In addition, the Authority’s procurement policy stated that it
                     would comply with Federal procurement requirements3, including those that must
                     be met to support cost reasonableness.

                     Independent Cost Estimates Were Not Performed

                     When procuring the three contracts executed with Paragon Accounting for
                     accounting services, Wayne Mancuso for legal services, and Rebowe and
                     Company for auditing services, the Authority did not perform independent cost
                     estimates.4 When asked, the executive director stated that an independent cost
                     estimate was not applicable because there was adequate competition. This
                     statement was not correct, as an independent cost estimate, which is designed to


1
  24 Code of Federal Regulations (CFR) 85.36(f)3
2
  2 CFR Part 225
3
  24 CFR 85.36
4
  Because there was adequate competition, this noncompliance did not affect the cost reasonableness of the Rebowe and Company auditing
contract.

                                                                     4
                                                                       
                      serve as a benchmark for evaluating the reasonableness of proposed costs, is
                      required before receiving proposals for all procurements.5

                      Competition Was Not Adequate

                      In addition to not performing independent costs estimates, the Authority did not
                      have adequate competition before awarding the contracts to Paragon Accounting
                      and Wayne Mancuso. Federal regulations6 required the Authority to ensure that
                      all of its procurement transactions were conducted with full and open competition.

                      Paragon Accounting: The Authority originally contracted with Paragon
                      Accounting in 2000. Although the executive director denied having
                      documentation for the procurement of the contract before 2006, our previous
                      report7 showed that the Authority neither (1) had files to show how it selected
                      Paragon Accounting in 2000 nor (2) sought competition for the contract, thus
                      executing a sole source contract.8 The executive director, who was then the board
                      chairman, was also directly involved in the awarding of Paragon Accounting’s
                      contract in 2000.

                      In 2006,9 the Authority again advertised for accounting services. However, it
                      received only one proposal from Paragon Accounting. When we asked the
                      executive director for documentation related to other proposals received, he stated
                      that he had only the documentation from the previous executive director and
                      could not provide documentation to support that additional proposals were
                      received and evaluated. As a result, the Authority again executed a sole source
                      contract with Paragon Accounting.

                      Wayne Mancuso: The Authority received only two proposals, one from Wayne
                      Mancuso and the other from Austin and Associates, when procuring for its legal
                      services. The HUD Handbook10 defines an adequate number of qualified sources
                      as not fewer than three. Therefore, the Authority did not obtain adequate
                      competition.

                      The executive director believed that there was adequate competition for all of the
                      contracts. While this was true for its contract with Rebowe and Company, it was
                      not true for the contracts with Paragon Accounting and Wayne Mancuso;
                      therefore, the Authority could not support the cost reasonableness of the $95,360
                      disbursed to Wayne Mancuso or the $81,467 disbursed to Paragon Accounting.



5
  24 CFR 85.36(f)
6
  24 CFR 85.36(c)(1)
7
  2001-FW-1809
8
   According to the HUD Handbook 7460.8 Rev. 2, paragraph 8.2, a sole source contract is when the Authority solicits an offer from one source,
or a “single source,” the Authority solicits offers from multiple sources but receives only one, or the competition is determined inadequate.
9
  Although the 2010 contract fell within our audit scope, we reviewed the 2006 contract documentation as well since the 2010 contract was based
on a renewal of the 2006 contract.
10
   7460.8 Rev. 2, paragraph 5.3(A)

                                                                       5
                                                                        
                    Required HUD Approval Was Not Obtained

                    Not only did the Authority sole source the Paragon Accounting contract, it also
                    contracted with Paragon Accounting for a period exceeding 5 years without HUD
                    approval, a practice prohibited by the HUD Handbook11. It states that contracts
                    cannot exceed a period of 5 years, including options for renewal or extension, and
                    contracts that exceed 5 years are viewed as restrictive of competition and in
                    violation of Federal competition requirements12. The 2006 contract was effective
                    for 4 years, from August 16, 2006, to August 16, 2010. This contract also had an
                    option to renew or extend for an additional 4 years. When the initial 4 years
                    ended, the Authority renewed the contract for an additional 4 years beginning
                    August 18, 2010, thereby making it an 8-year contract. While HUD may approve
                    contracts that exceed 5 years, the executive director did not seek or obtain HUD
                    approval for its contract with Paragon Accounting. Since the Authority exceeded
                    the 5-year limit and did not obtain HUD approval, it violated HUD requirements
                    and restricted competition.

                    The executive director also mistakenly believed that the Authority was exempt
                    from all HUD reviews because the procurement was competitive and the
                    Authority self-certified that its procurement policy complied with Federal
                    regulations. However, as discussed above, the procurement of the contract was
                    noncompetitive. Also, the self-certification exemption did not apply to the
                    contract term limitation.

                    Adequate Cost Analyses Were Not Performed

                    Although the executive director conducted cost analyses when procuring the
                    Authority’s contracts with Paragon Accounting and Wayne Mancuso, the analyses
                    were not adequate. A cost analysis is required for inadequate price competition
                    and sole source procurements,13 and should include

                             Verifying cost and price information;
                             Evaluating the effect of a potential contractor’s current practices on future
                              costs;
                             Comparing costs proposed by the potential contractor with (1) actual costs
                              previously incurred by the same contractor, (2) previous cost estimates
                              from the same contractor or other contractors for the same or similar
                              items, (3) the methodology to be used to perform the work, and (4) the
                              independent cost estimate;
                             Verifying that the potential contractor’s cost proposal complies with the
                              appropriate cost principles; and
                             Verifying that costs are allowable, allocable, and reasonable.14

11
   7460.8 Rev. 2, paragraph 10.8(C)(2)
12
   24 CFR 85.36(c)
13
   24 CFR 85.36(f)(1)
14
   HUD Handbook 7460.8 Rev. 2, appendix 12

                                                        6
                                                          
                      Paragon Accounting: In 2006, the executive director completed a cost analysis
                      for the Paragon Accounting contract but did not follow the basic steps outlined
                      above. For example, although he compared the fees in fiscal year 2005 to those
                      of the Shreveport and Monroe housing authorities’ in-house accountants, the
                      executive director did not document how he determined the fees. He also did not
                      document the methodology for performing the work and the costs associated with
                      the technical approach used. Further, the comparison of prices included the
                      Section 8 and low-rent programs’ costs for the other housing authorities, whereas
                      Paragon Accounting’s contract was only for the operating fund program and,
                      therefore, should have been compared only to operating fund-related costs.

                      The Authority was also required to conduct a brief review of market prices to
                      justify price reasonableness before exercising its option to renew the contract15 in
                      2010. For the 2010 cost analysis, the executive director compared Paragon
                      Accounting’s fees to those of the Shreveport housing authority’s in-house
                      accountant and determined that the fees were comparable. However, the
                      executive director’s comparison and justification were not adequate since the
                      Shreveport housing authority’s in-house accountant provided services for all of its
                      programs and Paragon Accounting provided services only for the Authority’s
                      operating fund. Again, costs should have only been compared to operating fund-
                      related costs.

                      Wayne Mancuso: The cost analysis performed by the executive director in 2011
                      was not adequate. The cost analysis documented hourly rate quotes obtained
                      from two law firms. However, the quotes were not from law firms of comparable
                      size when compared to the firms of Wayne Mancuso and Austin and Associates.
                      Specifically, the executive director obtained quotes from large law firms that had
                      more than 50 employees each, whereas Wayne Mancuso and Austin and
                      Associates were small firms with three or fewer attorneys. This difference made
                      the quotes obtained from the larger firms substantially higher than the bids
                      received from Wayne Mancuso and Austin and Associates. Therefore, it was not
                      reasonable to use these quotes for cost analysis purposes. Additionally, the cost
                      analysis did not document any of the steps for conducting a cost analysis outlined
                      above.

     Disbursements Were Not
     Properly Supported

                      Not only could the Authority not support the cost reasonableness of its contracts
                      with Wayne Mancuso, it also did not always properly support its disbursements.
                      The Authority was required to maintain complete and accurate books of account
                      and records in accordance with HUD requirements.16 Additionally, the Authority
                      is required to adequately document its costs.17 Further, the Authority’s

15
   HUD Handbook 7460.8 Rev. 2, paragraph 10.8(D)(3)
16
   Section 15(A) of the Authority’s annual contributions contract
17
   2 CFR Part 225 (c)(1)(j)

                                                                    7
                                                                     
                    accounting policy required it to include a vendor invoice and ensure proper
                    authorization, the validity of purchases, the receipt of goods or services, and the
                    accuracy of amounts.

                    However, for the $95,360 disbursed to Wayne Mancuso, the Authority did not
                    obtain an invoice or billing statement to document the work performed or the
                    number of hours worked. The support for the disbursements included only a copy
                    of the check issued to Wayne Mancuso and an excerpt from the contract noting a
                    monthly retainer fee of $2,500.

     The Executive Director Did Not
     Use the Proper Procurement
     Method

                    The executive director did not have a clear understanding of procurement
                    methods and, therefore, did not use the proper procurement method when
                    procuring the Authority’s contract with Paragon Accounting. Federal
                    regulations18 state that the technique of competitive proposals is normally
                    conducted with more than one source submitting an offer. In addition, a
                    competitive proposal is generally preferred when procuring professional
                    services.19

                    Although the Authority received only one bid, the executive director claimed that
                    the procurement was competitive. A review of the procurement file for Paragon
                    Accounting determined that the procurement was noncompetitive, defined by
                    Federal regulations20 as a procurement through solicitation of a proposal of only
                    one source or after solicitation of a number of sources, competition is determined
                    inadequate. Because the executive director received only one offer, he executed a
                    noncompetitive procurement and, therefore, did not have a clear understanding of
                    procurement methods.

     Bid Packages and Contracts
     Were Not Complete

                    The Authority included neither the mandatory forms in its bid packages nor all
                    required clauses in its contracts with Paragon Accounting, Wayne Mancuso, and
                    Rebowe and Company. The Authority was required to identify all requirements
                    for fulfillment and all other factors for evaluating bids or proposals in its bid
                    package.21 Additionally, the Authority was required to include with the bid
                    package two mandatory HUD forms, HUD-5369-B and HUD-5369-C.22


18
   24 CFR 85.36(d)(3)
19
   HUD Handbook 7460.8 Rev. 2, paragraph 7.4(C)(3)
20
   24 CFR 85.36(d)
21
   24 CFR 85.36(c)(3)(ii)
22
   HUD Handbook 7460.8 Rev. 2, paragraph 7.2(B)

                                                      8
                                                        
                        A review of the procurement files for Paragon Accounting, Wayne Mancuso, and
                        Rebowe and Company determined that the Authority failed to include the forms
                        with all of the bid packages. For each of the procurements, the executive director
                        indicated that the advertisement was the solicitation package. However, the
                        advertisements included only a general description of the scope of work and
                        evaluation factors, but not the required forms.

                        Additionally, the Authority was required to include specific contract clauses.23
                        However, Wayne Mancuso’s contract did not include the termination for cause
                        and access and retention requirements of records clause; Paragon Accounting’s
                        contract did not include the access and retention requirements of records clause;
                        and Rebowe and Company’s contract did not include the administrative remedies
                        for breach, termination for cause, and mandatory standards and policies on energy
                        efficiency clauses. The executive director stated that he did not know the clauses
                        were required in the contracts.

     Required Contract
     Documentation Was Not
     Maintained

                        The Authority did not maintain documentation to support the procurement of its
                        contracts with Paragon Accounting, Wayne Mancuso, and Rebowe and Company.
                        The Authority was required to maintain records sufficient to detail the significant
                        history of procurements.24 The executive director stated that he followed
                        procedures to ensure that unnecessary or duplicative services were not purchased.
                        However, there was no documentation to support this claim as required by
                        Federal regulations.25

                        In addition, the Authority did not document that it verified that contractors were
                        licensed, eligible, and not debarred before executing a contract.26 The executive
                        director stated that he had checked the excluded party’s list system Web site for
                        each of the contractors but did not print a copy of the results if the contractor was
                        not on the list. Lastly, for Wayne Mancuso’s contract, the Authority did not
                        document that profit was negotiated as a separate element of price. 27

     The Authority Renewed a
     Contract After It Expired

                        The Authority renewed the Paragon Accounting contract after it expired. The
                        HUD Handbook states that options may not be exercised after the contract


23
   24 CFR 85.36(i)
24
   24 CFR 85.36 (b)9
25
   24 CFR 85.36(b)(4)
26
   24 CFR 941.205(d)
27
   24 CFR 85.36(f)(2)

                                                          9
                                                            
                        expiration date because there is no longer a legal and binding contract to extend.28
                        However, after the Paragon Accounting contract term expired on August 16,
                        2010, the executive director authorized the renewal option, effective August 18,
                        2010, 2 days after the contract expiration date, violating the requirement.

     The Authority Did Not Follow
     or Have Adequate Policies

                        The Authority did not always (1) understand or follow Federal requirements or (2)
                        follow its own procurement and accounting policies. In addition, it did not ensure
                        that it had adequate policies and internal controls. Specifically, the Authority’s
                        procurement policy

                                  Did not establish appropriate controls over processes;
                                  Did not have a contract administration system to ensure that contractors
                                   performed according to the terms of their contracts;
                                  Did not address necessary affirmative steps to ensure that minority firms,
                                   women’s business enterprises, and labor surplus area firms were used
                                   when possible; and
                                  Did not address processes for avoiding the purchase of unnecessary or
                                   duplicative items.

                        In addition, the Authority’s accounting policy did not address a system of
                        approvals, authorizations, and separation of duties to ensure that adequate
                        supporting documentation existed for expenditures before making disbursements.

     The Authority Took Action


                        At the February 9, 2012, update meeting, the Authority stated that after it received
                        our results, it canceled the 8-year Paragon Accounting contract. According to the
                        Authority’s February 2012 board meeting minutes, it replaced the contract with a
                        month-to-month contract while it advertised for a new accounting contract.

     Conclusion

                        Because the Authority did not always understand or follow Federal regulations,
                        disregarded its own policies, and did not have adequate policies, it did not
                        complete independent cost estimates, obtain adequate competition, obtain HUD
                        approval, conduct adequate cost analyses, or properly support disbursements. In
                        addition, the Authority did not (1) use the proper procurement method, (2)
                        execute complete bid packages and contracts, (3) maintain required contract


28
     7460.8 Rev. 2, paragraph 10.8(C)(3)(e)

                                                            10
                                                              
          documentation, or (4) renew contracts before expiration. Therefore, it was unable
          to support $176,827 disbursed to contractors.

Recommendations

          We recommend that HUD’s Director of Public Housing require the Authority to

           1A. Support the cost reasonableness of the $81,467 paid to Paragon
               Accounting or repay any unsupported amounts to its operating fund from
               non-Federal funds.

           1B. Support the cost reasonableness of the $95,360 paid to Wayne Mancuso
               under the contract or repay and provide support for the payments made. If
               unable to support, the amounts should be repaid to its operating fund from
               non-Federal funds.

           1C. Revise its procurement policy and procedures and implement controls to
               ensure those policies are followed and procurements are in compliance
               with Federal regulations.

           1D. Develop and implement accounting policies, including but not limited to
               assembling and maintaining the appropriate supporting documentation
               before disbursement.

            1E. Obtain appropriate training for responsible Authority personnel to ensure a
                clear understanding of HUD procurement laws and regulations.




                                          11
                                            
Finding 2: The Authority Used More Than $280,000 in Federal Funds
for Unsupported and Ineligible Costs

The Authority did not always ensure that its expenditures were eligible and supported.
Specifically, it could not support disbursements from its operating fund made for security
services, a grant coordinator, and credit card purchases. In addition, the Authority paid for
ineligible credit card purchases from its operating fund. These conditions occurred because the
Authority did not have an adequate accounting policy or internal controls to ensure that its
disbursements were adequately supported and used for eligible activities. Also, the Authority’s
board and executive director did not maintain adequate internal controls to ensure that Authority
funds were expended in accordance with HUD and other requirements. As a result, the
Authority incurred $276,966 in unsupported and $4,090 in ineligible costs and could not provide
reasonable assurance that HUD funds were used effectively and efficiently or to fully benefit
program participants.



     Files Lacked Supporting
     Documentation for Payments

                        The Authority’s files did not always contain supporting documentation for its
                        disbursements for security services, a grant coordinator, and credit card purchases.
                        Federal regulations29 required the Authority to maintain adequate supporting
                        documentation for its expenditures. However, a review of more than 80 operating
                        fund and related expenditures determined that the Authority did not always ensure
                        that it adequately supported or had eligible expenditures as discussed below.

                        The Authority Could Not Support $240,635 Paid for Security Services: The
                        Authority had neither a written agreement nor adequate documentation to support
                        disbursements totaling $240,635 to four Jefferson Parish Sheriff's Office deputies
                        between October 2008 and September 2011. Federal Regulations30 required the
                        Authority to procure and execute a written agreement, such as a contract or
                        intergovernmental agreement, for these services. However, instead of procuring
                        or executing a written agreement for the security services, the executive director
                        paid the deputies directly. In addition, the Authority did not document the need
                        for the security services by showing that the services exceeded the normal need,
                        such as crime in its developments exceeding the city norm. Further, a review of
                        the supporting documentation for the disbursement determined that although it
                        included a sign-in sheet with the date, name of the officer, and time or hours
                        worked, it did not include documentation showing what areas the deputies


29
     2 CFR Part 225(c)(1)(j)
30
     24 CFR 85.36 (b)

                                                          12
                                                            
                        patrolled and whether the patrols were during times of increased crime at the
                        Authority’s developments.
                        The Authority Could Not Support $34,418 Paid to Its Grant Coordinator: The
                        Authority could not support $34,418 in disbursements to its grant coordinator, the
                        Louisiana Housing Development Corporation. The Authority received two grant
                        awards from HUD, which required the Authority to hire and maintain a grant
                        coordinator, effective April 2010 through March 2012. A review of the
                        disbursements to the Corporation determined that the Authority did not maintain
                        adequate documentation, such as records showing the name of the grant
                        coordinator or time and attendance records. The disbursement file included only
                        a schedule of payments and a copy of the check to the Corporation. When asked,
                        the executive director could not provide the time and attendance records for the
                        grant coordinator but, rather, provided an explanation of the grant coordinator’s
                        job duties. The executive director further stated that the Authority could not
                        require the Corporation’s employees to sign in and out because the Corporation
                        was a contractor and the Authority could not dictate how it accounted for
                        employees. While the Authority may not have been able to control their
                        contractor’s employees, they could have required supporting documentation from
                        the contractor to support its billings. The Authority also should have procured and
                        executed an independent contract for these services, but did not.

                        The Authority Could Not Support $1,913 and Incurred $4,090 in Ineligible Costs:
                        The executive director incurred questioned costs using the Authority’s Capital
                        One, Wal-Mart, and Lowe’s credit cards, and in most cases, the questioned costs
                        exceeded 51 percent of the total payment due to the vendors. The Authority did
                        not maintain and could not provide documentation such as receipts, order
                        confirmations, or other documentation to support $1,913 in expenditures for
                        various items such as cell phones, hotel stays, balance transfers, and various
                        grocery items.31 It also made $4,090 in ineligible payments for various ineligible
                        credit card purchases, including entertainment expenses, as shown in the table
                        below (also see appendix D).

                                                      Ineligible credit card expenditures
                                               Description                       Amount paid
                                               Personal use items                     $721
                                               Refrigerators                         $2,190
                                               Meals and entertainment               $1,173
                                               Finance charges                         $6
                                               Total                                 $4,090

                        In addition to these expenditures being ineligible, they were not necessary and
                        reasonable for the proper and efficient administration of the Authority’s
                        programs. Using the Wal-Mart credit card, the Authority purchased office snacks,
                        energy drinks, over-the-counter medications, and soft drinks for personal use by
                        its employees, a practice strictly prohibited by 2 CFR Part 225. In addition, the

31
     The grocery items were for janitorial type products, which we considered reasonable.

                                                                        13
                                                                           
                    Authority purchased six refrigerators from Lowe’s for which it could not provide
                    documentation showing which of its units received the new refrigerators, further
                    violating 2 CFR Part 225, which required the Authority to adequately document
                    costs. Further, the executive director used the Capital One credit card to purchase
                    meals at various restaurants. When asked, the executive director stated that the
                    charges were for meetings with the Authority’s board members and contractors
                    However, these costs were entertainment expenses, which were not allowable
                    under 2 CFR Part 225.

     The Authority Did Not Follow
     Requirements, Have an
     Adequate Accounting Policy, or
     Have Proper Internal Controls

                    As discussed above, the Authority did not follow HUD’s and other requirements.
                    In addition, the Authority’s accounting policy and related procedures were not
                    adequate, and the Authority lacked proper internal controls. Specifically, the
                    accounting policy and procedures

                          Did not establish appropriate controls over processes. For example, the
                           policy did not have specific documentation and procedures required for
                           the processing and payment of expenditures. Specifically, it did not
                           include procedures for processing credit card payments such as allowable
                           and unallowable items and the specific supporting documentation required
                           for payment.
                          Did not address a system of approvals, authorizations, and separation of
                           duties. For example, the accounting policy’s detailed procedures did not
                           designate signature authority for the board chairman or distinguish the
                           levels at which a second signature was required for disbursements or
                           always distinguish which staff member was responsible for which task.
                          Was not consistently followed.
                          Was not current and readily available to staff.

                    In addition, Authority staff members stated that they did not follow an accounting
                    policy in performing their job duties and they developed their own policies and
                    procedures during our previous audit32 of the Authority. Further, the owner of
                    Paragon Accounting stated that she did not have knowledge of the Authority’s
                    current accounting or accounts payable policies, but, rather, used policies from the
                    prior two Authority executive directors, which may no longer have been
                    applicable.

                    Lastly, the Authority’s board and executive director did not maintain adequate
                    internal controls over the Authority’s funds and its disbursement process.
                    Specifically,

32
     2011-AO-1007

                                                     14
                                                       
                    
                           The executive director was directly involved in all Authority transactions
                            and had blanket authority without proper oversight, as he was the
                            contracting officer, and he executed contracts, reviewed invoices,
                            approved disbursements, and signed the disbursement checks.
                           The executive director authorized the payment of invoices without
                            adequate supporting documentation.
                           During our previous audit33, we learned that the executive director kept in
                            his office the board chairman’s signature stamp, which he used to sign
                            checks for disbursements. Therefore, the board did not properly oversee
                            the disbursement process, as it was not present during this process.
                           While the executive director initialed the invoices reviewed and indicated
                            the funding source, the date the invoices were approved was not included.
                            Therefore, we were unable to determine whether invoices were approved
                            before disbursement.
                           The executive director circumvented the accounting policies by processing
                            invoices and authorizing disbursements without documenting that the
                            Authority had received items purchased.
                           The executive director approved purchase orders without adequately
                            including required information, such as a description of items purchased,
                            unit price, or quantity of items purchased. Purchase orders also lacked
                            approval before disbursement.
                           The executive director was unable to provide information regarding which
                            specific units had repair work performed requiring the use of items
                            purchased with the Authority’s credit card(s). The Authority also did not
                            have procedures that required items purchased or used to be assigned to a
                            specific project or unit.

     Conclusion

                   Because the Authority did not comply with Federal procurement regulations,
                   HUD requirements, or its own procurement and accounting policies and
                   procedures, it could not provide reasonable assurance that HUD operating funds
                   were used effectively and efficiently or to benefit program participants and
                   incurred $276,966 in unsupported and $4,090 in ineligible costs.




     Recommendations




33
     This issue was reported in a minor deficiencies memorandum issued to HUD and the Authority.


                                                        15
                                                           
We recommend that HUD’s Director of Public Housing require the Authority to

 2A. Provide supporting documentation which shows the need for security
     services while supporting the cost reasonableness of the $240,635
     disbursed to the four Jefferson Parish sheriff’s deputies or repay to its
     operating fund from non-Federal funds any amounts that it cannot support.

 2B. Immediately discontinue payments to the four Jefferson Parish sheriff’s
     deputies and procure a contract for security services or enter into an
     intergovernmental agreement.

 2C. Support payments of $34,418 to the Louisiana Housing Development
     Corporation or repay to its operating fund from non-Federal funds any
     amounts that it cannot support.

 2D. Support payments of $1,913 for various credit card purchases or repay to
     its operating fund from non-Federal funds any amounts that it cannot
     support.

 2E. Repay from non-Federal funds $4,090 to its operating fund for ineligible
     credit card purchases that included the purchase of items for donations,
     personal use products, meals, unaccounted for refrigerators, and finance
     charges.

 2F. Immediately stop using funds for prohibited items.

 2G. Revise and implement accounting procedures and internal controls to
     include the use of Authority credit cards as well as disbursements, and
     require a certification of understanding of the procedures and internal
     controls to be signed by all Authority employees.

 2H. Develop and implement an inventory control policy.

       We also recommend that the Director of the Departmental Enforcement
       Center, in coordination with the Director of the Office of Public Housing,

 2I.   Take appropriate administrative sanctions against the executive director,
       including but not limited to debarment from HUD programs, for the
       disbursement of Federal funds prohibited by HUD requirements.




                                16
                                  
Finding 3: The Authority Violated Federal Law When It Paid More
Than $100,000 to Its Board Members
The Authority did not follow Federal law when it authorized payments to the members of its
Board. Specifically, the executive director authorized monthly payments to the Authority’s
board members for serving on the Board totaling $99,006, plus $7,800 for board members to
perform home inspections for the Authority’s Section 901 home program. These conditions
occurred because the Authority did not understand Federal regulations and disregarded HUD
guidance. As a result, it incurred $106,806 in ineligible costs and could not provide reasonable
assurance that HUD funds were protected from waste and abuse.


  The Authority Violated Federal
  Law

                     The executive director authorized payments to board members from its Section 8
                     funds that were prohibited by Federal law. HUD regulations34 restricted the use
                     of funds under the Housing Choice Voucher program, including Section 8 and
                     administrative reserve fee funds, for only activities related to the provision of
                     Section 8 tenant-based rental assistance, including related development activities.
                     In addition, HUD informed the Authority during an April 2011 meeting that these
                     payments to board members were not allowed. However, the executive director
                     and board members disregarded these regulations and instructions. Between
                     October 2006 and September 2011, the Authority paid what it classified as “per
                     diem” payments to 16 past and present board members from various HUD funds a
                     total of $106,806 (see Appendix E) for serving on the Board and performing
                     inspections.

                     In February 2011, the executive director requested and obtained a legal opinion
                     from the Authority’s contracted attorney, Wayne Mancuso. Wayne Mancuso
                     concluded that since the monthly per diem payments were made from the
                     Authority’s administrative reserve account accumulated before 2004, which were
                     considered non-Federal funds, the payments were within Federal law and,
                     therefore, allowable. However, Wayne Mancuso’s legal opinion was incorrect as
                     the monthly payments were not made from the Authority’s reserve accounts,
                     between October 2006 and February 2011, but rather from various other Federal
                     fund accounts including the Section 8 funds (See Appendix E). The Authority did
                     not begin paying the board members from the reserve account until March 2011.
                     Regardless, the administrative reserve funds, as well as the Section 8 and other
                     funds, could not be used to pay board members. The Authority has continued to
                     make these ineligible monthly payments to its board members.

34
   Section 11 of the annual contributions contract, HUD Public and Indian Housing (PIH) Notice 2004-7, paragraph 4, HUD PIH Notice 2007-14
paragraph 8, Section (4)(i) and (ii), and Public Law 108-199.

                                                                   17
                                                                      
                         As related to the inspection payments, the Authority paid its board members to
                         perform inspections of the homes in the Section 901 program. The executive
                         director authorized payments to five board members in fiscal year 2009 totaling
                         $3,900 and payments to two board members in fiscal year 2010 totaling $3,900 to
                         perform the inspections. These payments were also ineligible under HUD
                         regulations, as discussed above.

     The Authority Did Not Always
     Issue Form 1099s to Board
     Members                                                
 
                         The Authority did not issue form 1099s35 to the board members who received
                         payments prior to 201036. When asked, the executive director stated that the
                         monthly board per diems were not taxable income because they were for
                         reimbursable expenses incurred. However, the Authority paid the board
                         members a set rate for attendance at the board meetings and to perform the
                         inspections and did not maintain documentation, other than copies of the checks
                         to the board members, to support the expenses incurred. The executive director
                         stated that he noticed the board member monthly per diems were increasing due
                         to construction inspections and was concerned these amounts may become
                         taxable. Therefore, the Authority began issuing form 1099s in 2010.

     Conclusion
                                                            
 
                         Because the executive director did not understand Federal requirements and
                         ignored HUD guidance, the Authority made ineligible payments to its board
                         members. As a result, it incurred $106,806 in ineligible costs and was unable to
                         provide reasonable assurance that HUD funds were used effectively and
                         efficiently, fully benefited program participants, or were protected from waste and
                         abuse.

     Recommendations
                                                            
 
                         We recommend that HUD’s Director of Public Housing require the Authority to

                                  3A. Seek reimbursement from individual past and present board members
                                      and repay HUD $106,806 in ineligible costs paid between October
                                      2006 and September 2011.

                                  3B. Immediately discontinue the practice of paying board members and
                                      seek reimbursements for any amounts paid since September 2011 until
                                      discontinued.

35
     Form 1099 series is used to report various types of income other than wages, salaries, and tips.
36
     According to the executive director, this includes 2006, 2007, 2008, and 2009.

                                                                           18
                                                                             
     3C. Direct the Jefferson Parish president to evaluate the effectiveness of
         the board and remove and replace commissioners as appropriate.

We also recommend that the Director of the Departmental Enforcement Center, in
coordination with the Director of the Office of Public Housing,

    3D. Take appropriate administrative sanctions against the executive director
        and board members, up to and including debarment, for the
        disbursement of Federal funds prohibited by HUD requirements.




                               19
                                  
Finding 4: The Authority Created a Conflict of Interest When It Paid
More Than $90,000 to a State Legislator’s Company

The Authority created a conflict of interest when it paid for services provided by a State
legislator’s company. Additionally, it violated Federal competition requirements and did not
properly procure the services provided. These conditions occurred because the executive
director disregarded HUD requirements and the Authority’s own procurement policy. As a
result, the Authority incurred $91,218 in ineligible costs and could not provide reasonable
assurance that HUD funds were used effectively and efficiently or to fully benefit program
participants.



     The Authority Created a
     Conflict of Interest

                        The Authority paid Diversified Ventures, which was owned by a member of the
                        Louisiana House of Representatives, for repair services, thereby creating a
                        conflict of interest. The Authority’s annual contributions contract37 prohibited the
                        Authority from entering into a contract, subcontract, or arrangement in connection
                        with a project with a State or local legislator. Over the course of approximately 8
                        months38, the Authority paid $91,218 from its operating fund to Diversified
                        Ventures for roof repairs, cleanup and restoration services, interior wall repairs,
                        and other services, as shown in the table below (see Appendix C for more details
                        regarding the payments disbursed to Diversified Ventures).

                                   Services provided by Diversified Ventures    Amount paid
                                 Roof repairs                                       $62,223
                                 Cleanup and restoration                             20,720
                                 Interior wall repairs                                 8,025
                                 Other                                                   250
                                 Total                                              $91,218

                        The executive director knew the company was owned by a State legislator
                        because he identified him as the contact person for Diversified Ventures.
                        Therefore, he disregarded HUD’s requirements by creating this conflict of
                        interest.




37
     Section 19(A)(1)(iii)
38
     January 9, 2009 – September 2, 2009

                                                          20
                                                            
             The Executive Director
             Violated Procurement
             Requirements

                      Not only did the executive director create a conflict of interest, he also violated
                      HUD procurement requirements when he did not competitively procure the
                      services provided by Diversified Ventures. All procurement transactions must be
                      conducted in a manner providing full and open competition,39 including the
                      procurements that exceeded the Authority’s small purchase threshold of $20,000.
                      The HUD Handbook40 further elaborates on the Federal competition requirements
                      and prohibits bid splitting, which is the process of breaking down a purchase into
                      multiple smaller transactions to avoid more stringent procurement threshold
                      requirements.

                      Despite these requirements, the executive director split the services provided by
                      Diversified Ventures to avoid competitively procuring the services. In one
                      instance, within 1 month, the Authority paid Diversified Ventures $62,223 for
                      roof repairs, which was divided into seven separate payments. The payments
                      were all under the Authority’s $20,000 small purchase threshold. In another
                      instance, within 1½ months, the Authority also paid Diversified Ventures $20,270
                      for cleanup and restoration services, which was divided into 46 separate
                      payments. In yet another instance, within 1 week, the Authority paid Diversified
                      Ventures more than $8,025 for interior wall repairs, which was divided into eight
                      separate payments (see Appendix C). Although the $8,025 was under the
                      Authority’s $20,000 small purchase threshold, the Authority’s procurement policy
                      also required it to obtain three quotes and select the lowest bidder for purchases
                      between $2,501 and $10,000. Since each of the eight payments was under the
                      $2,501 threshold, the Authority circumvented this requirement.

                      When asked, the executive director stated that the services provided by
                      Diversified Ventures were for emergency work; therefore, the Authority did not
                      advertise for the services and used whichever contractor responded first.
                      Although Federal regulations41 allowed procurement by noncompetitive proposals
                      in the case of the public exigency or emergencies, the HUD Handbook42 required
                      the Authority to maintain written documentation showing the justification for the
                      noncompetitive procurement, specific information, and approval by the
                      contracting officer. It also required the Authority to conduct a cost analysis.
                      Further, in the case of a public emergency, the Authority’s procurement policy
                      required the executive director to certify the emergency in writing and notify the
                      board. However, the executive director failed to follow any of these
                      requirements.


39
   24 CFR 85.36(c)(1)
40
   7460.8 Rev. 2, paragraph 5.3
41
   24 CFR 85.36
42
   7460.8 Rev. 2, paragraph 8.5(A)

                                                      21
                                                         
The Authority Amended Its
Procurement Policy

             In an attempt to circumvent the bid splitting issues identified, the Authority and
             its board amended the Authority’s procurement policy to increase the Authority’s
             small purchase threshold from $20,000 to $100,000.

Conclusion


             Because the executive director did not comply with HUD’s and other
             requirements, the Authority entered into a conflict-of-interest transaction, engaged
             in bid splitting, and restricted full and open competition. Therefore, it incurred
             $91,218 in ineligible costs and could not provide reasonable assurance that it used
             HUD funds effectively and efficiently or to fully benefit program participants.

Recommendations


             We recommend that HUD’s Director of Public Housing require the Authority to

              4A. Repay from non-Federal funds the $91,218 paid to Diversified Ventures,
                  which created a conflict of interest.

               4B. Develop and implement controls to ensure that conflict of interest
                   situations are avoided.

               4C. Develop and implement controls to ensure that bid splitting is avoided and
                   full and open competition is obtained when procuring goods and services.

             We also recommend that the Director of the Departmental Enforcement Center, in
             coordination with the Director of the Office of Public Housing,

              4D. Take appropriate administrative sanctions against the executive director,
                  up to and including debarment, for the disbursement of Federal funds
                  prohibited by HUD requirements.




                                              22
                                                
                        SCOPE AND METHODOLOGY

We conducted our audit at the Authority’s office in Marrero, LA, and the HUD Office of
Inspector General’s (OIG) office in New Orleans, LA. We performed our audit between October
2011 and May 2012.

To accomplish our objective, we

      Reviewed laws, regulations, and program guidance relevant to the Authority’s housing
       programs.
      Interviewed HUD, Authority staff, and the Authority’s contractors.
      Reviewed the Authority’s audited financial statements.
      Reviewed the Authority’s annual contributions contract amendment, annual statements,
       and 5-year plan.
      Reviewed the Authority’s board meeting minutes.
      Reviewed the Authority’s procurement and accounting policies.
      Reviewed the Authority’s procurement and expenditure files.

During our audit scope and based upon its contract log, the Authority executed five contracts.
We removed two contracts from the universe because they were funded with Section 8
administrative funds and were not subject to HUD procurement regulations. We used the 100
percent selection method to select the remaining three procurement files, with disbursements
totaling at least $266,250, and evaluated whether the Authority conducted the procurements in
accordance with HUD requirements.

The Authority had 2,409 expenditures totaling more than $2.3 million paid from its operating
fund. We selected 83 operating fund expenditure files for review, totaling $682,919. Of the 83,
we reviewed 10 expenditure files for Paragon Accounting, totaling $16,885. We chose the 10
files since we reviewed the related procurement file. The remaining 73 were expenditures for
various vendors, including Wayne Mancuso, totaling $666,034. We focused on expenditures to
contractors, individuals, Authority personnel, and vendors; and selected those who received
$25,000 or more. We reviewed the 6 largest expenditures for each of the 8 identified, for a total
of 48 expenditures reviewed totaling $637,463. We reviewed an additional 25 files related to the
5 largest expenditures for 1 contractor and 4 credit card vendors totaling $28,571. When
warranted, we expanded our review beyond the 83 files selected for review for related
expenditures, and reviewed a total of 134 expenditures. The results of our expenditure review
apply only to the items selected and reviewed, and cannot be projected to the universe or
population of expenditures. We reviewed the expenditures to determine whether the
disbursements were eligible, supported, and paid in accordance with HUD and other
requirements, as applicable. Through file reviews, we determined that the electronic
disbursement data were generally reliable.




                                               23
                                                 
Our audit scope covered the period October 1, 2008, through September 30, 2011. We expanded
the scope as needed to accomplish our audit objective. We conducted the audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective.




                                               24
                                                  
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                     Effectiveness and efficiency of operations - Policies and procedures that
                      were implemented to reasonably ensure that procurement and expenditure
                      activities were conducted in accordance with applicable laws and
                      regulations.

                     Compliance with applicable laws and regulations - Policies and
                      procedures that were implemented to reasonably ensure that payments to
                      vendors and procurement activities complied with applicable laws and
                      regulations.

                     Safeguarding of resources - Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.



                                                 25
                                                   
Significant Deficiencies

             Based on our review, we believe that the following items are significant deficiencies:

                   The Authority lacked adequate controls to ensure that procurement
                    activities complied with applicable laws and regulations (see findings 1
                    and 4).
                   The Authority did not have controls in place to ensure that all
                    disbursements were for eligible and supported activities (see findings 2, 3,
                    and 4).
                   The Authority did not have adequate written accounting policies and
                    procedures (see findings 1 and 2).




                                              26
                                                 
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                  Recommendation             Ineligible 1/   Unsupported
                      number                                          2/
                         1A                                       $81,467
                         1B                                        95,360
                         2A                                       240,635
                         2C                                        34,418
                         2D                                         1,913
                         2E                         $4,090
                         3A                        106,806
                         4A                         91,218
                        Totals                    $202,114       $453,793

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             27
                                               
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1



Comment 2

Comment 3


Comment 4




Comment 5


Comment 2




                         28
                           
Comment 6




            29
              
Comment 6




Comment 6



Comment 7




            30
              
Comment 7




Comment 8




Comment 7




            31
              
Comment 6




Comment 6




Comment 6




            32
              
Comment 6



Comment 6




Comments 6,
7, and 8




Comment 9




              33
                
Comment 9



Comment 10




Comment 10




             34
               
Comment 11




Comment 12




             35
               
Comment 13



Comment 14




Comment 15

Comment 16




Comment 17



Comment 18




             36
               
Comment 19




Comment 20




             37
               
Comment 21




Comment 22




Comment 23




             38
               
Comment 23




Comment 24




             39
               
Comment 25




Comment 26




             40
               
Comment 27




Comments 18,
20, 21, 23,
and 24




Comment 28




               41
                 
Comment 29




Comment 30




             42
               
Comment 31




Comment 32




Comment 33




             43
               
Comment 33




Comment 34



Comment 34



Comment 34


Comment 34



Comment 34




             44
               
Comment 35




Comment 36




             45
               
Comment 36




Comment 36




Comment 37




             46
               
Comment 37




Comment 38




Comment 39




             47
               
Comment 40




Comment 41




Comment 42




Comment 43




             48
               
Comment 44




Comment 45




             49
               
Comment 45




Comment 45




Comment 40




Comment 46




             50
               
Comment 47

Comment 48




Comment 49


Comment 50


Comment 51

Comment 51




Comment 52




             51
               
Comment 53




Comment 53




Comment 54




             52
               
Comment 54




Comment 55




Comment 56




             53
               
Comment 53




Comment 57


Comment 58




             54
               
Comment 59




Comment 56




Comment 60




             55
               
                         OIG Evaluation of Auditee Comments

Comment 1   We exercised both due care and due diligence in considering all of the detailed
            explanations provided by the Authority. We also developed our findings and
            conclusions based upon the requirements in the Authority’s annual contribution
            contracts and documentation provided by the Authority. In most cases, the
            Authority could not provide documentation to support or substantiate its
            explanations. As discussed in comments 6, 38 and 56, we revised the report
            based upon the additional documentation provided by the Authority to support
            that (1) the annual contributions contract (ACC) HUD form 52520 applies to its
            use of funds under the Housing Choice Voucher program; (2) the $100 donation
            was funded with private funds; and (3) it must follow the State bid law instead of
            State procurement law.

Comment 2   All information presented in the report is supported by facts, the application of
            laws and regulations, and documentation provided by the Authority provided
            during the course of the audit. All audit staff involved in this audit are
            independent in fact, appearance, and free from personal, external, and
            organizational impairments to independence.

Comment 3   While it is true that the recommendations were closed by HUD, this does not
            mean that the Authority was exonerated. The facts and conclusions in the prior
            report did not change and were supported. The reference to the findings in the
            prior report was used since the prior audit found similar and related issues.

Comment 4   We agree that this sentence was somewhat confusing and revised the report
            accordingly.

Comment 5   There are no statements in the report suggesting that the Authority is larger than
            what is shown in the background section of the report. Regardless of its size, the
            Authority and its board are still responsible for the proper administration and
            oversight of HUD’s programs and funds.

Comment 6   We agree that the ACC, HUD form 52520, dated December 1997 does apply to
            the use of funds under the Housing Choice Voucher program and revised the
            report accordingly. However, we disagree that the Authority used unrestricted,
            non-Federal funding, as the administrative reserve fees are, in fact, Federal funds.
            In addition, the Authority’s accounting records show that it paid Board members
            from Section 8 and disaster housing funds from October 2006 through February
            2011 (See Appendix E). It did not begin paying board members from the
            administrative reserve fees until March 2011.

            As related to the administrative reserve fees, notices and regulations, issued after
            the December 1997 ACC and the March 23, 2004 article citing the HUD
            spokesperson, limited the use of these funds to only program related costs (See
            comment 7). Further, in other documentation submitted by the Authority, a HUD

                                             56
                                               
            representative specifically instructed the Authority to contact the local HUD field
            office regarding eligible uses of administrative fees. Regardless of the SEMAP
            score, the local HUD field office informed the Authority that it could not use
            HUD funds to pay board members, as shown in the report. During the exit
            conference, the local HUD field office confirmed this again and refuted the
            Authority’s statement that it was not informed.

Comment 7   We disagree. As discussed in comment 8, the board members were compensated
            rather than reimbursed. A review of the additional documentation provided by
            the Authority determined that:

            (1) The Jefferson Parish Council Ordinance dated April 2, 1986 allowed board
                members to receive a $75 per diem from a portion of Council District number
                two’s Federal Revenue Sharing allocation, until January 1, 1987 or until the
                enactment of appropriate legislation by the State of Louisiana providing
                funding for this per diem, whichever occurred first. This did not give the
                Authority permission to use HUD funds to compensate board members, the
                Authority did not use State funding, and the approval for this practice has
                expired;
            (2) The Louisiana Attorney General’s opinion dated June 1991 was issued for
                board members of the Louisiana Regional Airport, not the Authority;
            (3) Louisiana Revised statute 40:540 applied to reimbursements of travel and
                stated that board members shall not receive compensation for their services;
                and
            (4) Louisiana Revised statute 40:531(F) applied to funds of the Authority and not
                HUD funds.

            While the Authority claimed it used administrative funds accumulated prior to
            2004 for other housing purposes permitted by State and local law, the local HUD
            field office informed the Authority, as discussed in Comment 6, that it could not
            use funds to compensate board members. In addition, upon the issuance of Public
            Law 108-199 in 2004, PIH notice 2004-7 (dated April 22, 2004) and 2007-14
            (dated June 18, 2007), any excess administrative fees accumulated from Federal
            fiscal year 2004 funding forward subsequently moved into the administrative fee
            reserve account could no longer be used for “other housing purposes permitted by
            State and local law”. The regulations also stated these funds could only be used
            for the provision of Section 8 rental assistance, including related development
            activities. Examples of related development activities include, but are not limited
            to, unit modification for accessibility purposes and development of project-based
            voucher units. This did not include compensation to board members.

            Further, before March 2011, the Authority did not have a separate bank account
            for its administrative funds and commingled its administrative funds into bank
            accounts with its other Housing Choice Voucher program funds. Because the
            Authority destroyed records older than three years, it could not provide supporting
            documentation to show that it actually had funds remaining that were

                                             57
                                               
              accumulated prior to 2004 or that the funds moved into the separate bank account
              in March 2011 were actually administrative funds accumulated prior to 2004.
              Regardless, the Authority could not use these funds to compensate board
              members. However, the Authority continued to pay board members because it
              was not fully aware of HUD’s requirements and ignored HUD’s guidance (See
              comment 6). Therefore, we stand by our original conclusions.

Comment 8     The Authority did not have any documentation, such as certified expense
              vouchers or receipts, supporting the expenses incurred by the board members or
              to substantiate the reasonableness of the lump sum amounts provided to board
              members. During the exit conference, the Authority also stated that it did not
              have a travel policy, but its board resolution number 1505, dated July 2006,
              included a policy, which outlined the requirements for reimbursement related to
              meals and mileage. However, the Authority did not follow this policy.

              Based upon the Authority’s independent audit reports and other documentation, it
              is clear that the board member payments were compensation, rather than
              reimbursements. The Authority’s independent audit reports which are required
              every year and are based on information provided by the Authority, showed that
              the board members were compensated for serving on the board and even titled the
              section "Board of Commissioners Compensation", in the reports prior to fiscal
              year 2010. Beginning fiscal year 2010, the title changed to ”Per Diem Paid to
              Board Members”, but still showed that these funds were provided for serving on
              the Board and not reimbursements for travel, as reimbursement for travel would
              have no place in an audit report. In addition, in 2010 the Authority began issuing
              1099 tax forms, which are used to report income and would not be issued in the
              case of reimbursements, to board members. In fact, one board member returned
              two months of payments to the Authority with a letter requesting that the
              Authority not to provide him with further payments, without further explanation.

Comment 9     The Authority asserted that the per diem reimbursements were eligible under
              HUD and State law. We disagree as discussed in comments 6, 7, and 8. The
              Authority also asserted that these were reimbursements for expenses, to which we
              also disagree. As discussed in Comment 8, it is clear that the board member
              payments were compensation, rather than reimbursements. Therefore, the
              Authority’s assertion that the disbursements were appropriate reimbursements of
              board member expenses on official duty is also incorrect. As a result, we stand by
              our original conclusions and recommendations.

Comment 10 The Authority stated that board members are entitled to reimbursement, no
           Federal funds were improperly disbursed and it is beyond the OIG scope to
           request the Parish president to intervene. This is incorrect and contradicts Federal
           regulations as stated in the report. The report presents evidence in an unbiased
           manner and in the proper context to conclude that the executive director and
           board members failed to exercise proper oversight over the disbursement of
           Authority funds. The Authority’s lack of knowledge of HUD regulations and

                                              58
                                                
              disregard for HUD guidance contributed to their lack of oversight over the
              disbursement of Authority funds. It is proper and within the scope of the OIG’s
              purview to recommend that the Jefferson Parish president and HUD take
              appropriate actions that will correct the deficiencies and improve operations at the
              Authority. Therefore, we stand by our original recommendations.

Comment 11 The Authority was unable to support the cost reasonableness of its procurement of
           accounting and legal services. Our findings and conclusions are supported by
           facts, the application of laws and regulations, and documentation provided by the
           Authority. Additionally, the Authority provided no examples of how the report
           contradicts the HUD guide. Although the Authority stated it conducted research
           to ensure cost reasonableness, comparing the current contract cost to the previous
           1995 contract cost, is only part of the process for determining cost reasonableness
           according to the HUD Handbook 7460.8. Therefore, we determined the Authority
           did not follow all of the basic steps as outlined in the HUD handbook 7460.8 for
           determining cost reasonableness. As a result, we stand by our original
           conclusions and recommendations.

Comment 12 The Authority did not perform independent cost estimates. When we requested
           copies of the independent cost estimates, the Authority stated that the estimates
           were not required when adequate competition existed. However, independent
           cost estimates are required for all procurements.

Comment 13 The Authority is confusing an independent cost estimate with a cost analysis.
           Although the Authority references an independent cost estimate for the legal
           services contract, it only provided a copy of a 1995 legal services contract and did
           not provide an independent cost estimate. In addition, the Authority stated that it
           compared the price of a competing bid to ensure the accuracy of its cost estimate.
           However, one competing bid is not sufficient competition.

Comment 14 Federal regulations required the Authority to complete the independent cost
           estimate prior to advertisement and not prior to the execution of the July 2006
           contract. The advertisement provided by the Authority did not contain a date;
           therefore, we could not determine if the independent cost estimate was completed
           prior to the advertisement. Additionally, according to HUD, the Authority's low
           rent program is considered small, whereas, Shreveport Housing Authority's is
           considered medium, with over three times the number of low rent units; and the
           Monroe Housing Authority's is considered large with over seven times the
           number of low rent units; thus, not an adequate comparison.

Comment 15 Competing proposals cannot be used to conduct an independent cost estimate,
           since the independent cost estimate must be performed prior to advertising for
           bids.

Comment 16 While the Authority considered the contracts small and believed it was not
           required to produce extensive documentation, 24 CFR 85.36(b)(9) required it to

                                               59
                                                 
              maintain records sufficient to detail the significant history of its procurement.
              The Authority did not provide documentation to support that independent cost
              estimates were performed prior to advertising for bids; therefore, it did not
              maintain sufficient records.

Comment 17 The Authority did not have adequate competition for its accounting and legal
           services contract, as discussed in comments 18, 20, and 21 below.

Comment 18 The Authority did not receive an adequate number of responses to support full
           and open competition. HUD Handbook 7460.8 Rev. 2 Chapter 1.9 defines a non-
           competitive procurement as "procurement through solicitation of a proposal from
           only one source, or after solicitation of a number of sources, competition is
           determined inadequate." Therefore, just because the Authority attempted to
           solicit an adequate number of sources, this did not preclude the contract from
           being considered non-competitive. In addition, the Authority did not provide
           documentation to support the circumstances of the procurement referenced in the
           HUD letter. Without this documentation, it appears that the Authority uses
           HUD's quote from the letter out of context as the legal services procurement
           mentioned in the letter may have included extenuating circumstances, such as an
           adequate number of proposals which would justify the determination of open and
           fair competition.

Comment 19 While the recommendations were closed by HUD, this does not mean that the
           Authority was exonerated. The facts and conclusions in the prior report did not
           change and were supported. The reference to the findings in the prior report was
           used since the prior audit found similar and related issues with the Authority's
           procurement process which the Authority is still experiencing. Additionally, the
           report does not misstate that the current executive director (previous board
           chairman) was directly involved in the awarding of Paragon Accounting's contract
           in 2000, as the prior report stated "chairman consistently performed the duties of a
           contracting officer, including soliciting proposals, awarding, and executing
           contracts."

Comment 20 The Authority alleges that the report engages in improper speculation. We did not
           remove the paragraph stating that it “appeared” that the Authority executed a sole
           source contract in 2006. We removed "appeared" from the report for clarification
           purposes so as to not imply that any type of speculation occurred. Our review
           supports that the Authority executed a sole source contract in 2000 and again in
           2006. Just because the Authority attempted to solicit a number of sources, this
           did not preclude the contract from being considered non-competitive, as discussed
           in comment 18. When asked, the Authority stated that it did not have
           documentation for the additional proposals. Further, the executive director's
           evaluation of proposals and ranking spreadsheet included an evaluation of only
           one respondent, Paragon Accounting; therefore, supporting that there were no
           additional proposals received and evaluated during the procurement of the 2006
           contract. As a result, the Authority received only one proposal which it accepted

                                               60
                                                 
              without adequate competition and improperly entered into a non-competitive
              contract.

Comment 21 The Authority asserted that the report applies the wrong regulation in determining
           how many proposals are required to ensure fair competition. We disagree. The
           $95,360 expended under the legal services contract still fell under the small
           purchase threshold of $100,000. HUD Procurement Handbook 7460.8 Rev. 2
           Section 5.3A refers to the competition requirements for small purchases that are
           above the micro purchase limit of $2,000, but under the small purchase threshold
           of $100,000. The small purchase procedures do not apply only to small purchases
           that involve the direct solicitation of bids by phone as the Authority suggests.
           The HUD Handbook states that an adequate number of qualified sources are
           generally defined as not less than three, except in the case of micro purchases;
           therefore, the regulation is not overstated as the Authority suggests.

Comment 22 We acknowledge the Authority for taking action on the Paragon Accounting
           contract. However, it was the executive director’s responsibility to ensure
           compliance with all HUD rules and regulations and that all existing contracts
           were in compliance instead of assuming that they were properly executed. We
           did not review documentation related to the 2012 accounting contract
           procurement and therefore, cannot comment on its execution. However, as
           discussed in the report and in comments 18 and 20 the 2006 Paragon contract was
           non-competitive.

Comment 23 The Authority’s assertion that we were incorrect in labeling the cost analyses of
           Paragon accounting and Wayne Mancuso inadequate is a misinterpretation of the
           information stated in the report. We only questioned the adequacy of the cost
           analyses related to two of the three contracts. As discussed in comments 18, 20
           and 21, simply because the Authority attempted to solicit a number of sources, did
           not preclude the contract from being considered non-competitive or sole sourced.
           When inadequate competition or a sole source contract exists, the Authority must
           follow specific guidelines to perform a cost analysis. The Authority neither
           followed these requirements nor performed adequate cost analyses.

Comment 24 Section 10.3 of the HUD Handbook applies to purchases above the Federal small
           purchase threshold. Both Paragon Accounting, $81,467, and Wayne Mancuso,
           $95,360, contracts, were under the small purchase threshold of $100,000. Thus,
           the regulations quoted by the Authority do not apply to these contracts. We did
           not question the cost reasonableness for its auditing services because there were
           seven bids which were enough to establish adequate competition. The accounting
           and legal services contracts only received one and two proposals, respectively;
           therefore, it did not have sufficient bids to establish adequate competition. An
           independent cost estimate is required for all procurements.

Comment 25 We did not state that the Authority violated regulations when it compared
           Paragon's prices to the in house accountants, but without documenting how the

                                             61
                                               
              fees were determined, the Authority could not support the accuracy or
              reasonableness of the fees used for comparison. As stated in the report, for the
              cost analysis, the Authority used prices for services performed by in house
              accountants for programs not included in Paragon Accounting's contract and,
              therefore, was not adequate. In addition, because adequate competition was not
              obtained, the Authority was required to perform a cost analysis in accordance
              with specific requirements.

Comment 26 We disagree with the Authority’s assertion that the report engages in speculation
           and invents new rules regarding the cost analysis of its legal services
           procurement. It is a logical conclusion to draw that smaller law firms charge less
           than larger firms based on the evidence in the procurement file. However, the
           more predominant issue is that the Authority did not comply with HUD's
           requirements for a cost analysis. The Authority merely documented two hourly
           rate quotes which did not comply with the cost analysis requirements and did not
           document the prior contracts as a part of its cost analysis. Additionally, the
           Authority did not have adequate competition with only two responses.
           Therefore, the Authority's cost analysis was not adequate.

Comment 27 Without invoices detailing the work performed by Mr. Mancuso for the Authority,
           the Authority could not support that it received the services for the $2,500
           monthly retainer that it was paying to Wayne Mancuso. The Authority's actions
           that now require Mr. Mancuso to submit detailed monthly invoices, is a HUD
           requirement rather than an OIG preference.

Comment 28 We disagree it is impossible to send out bid packages with newspaper
           advertisements. The advertisements should indicate how to obtain a bid package
           so the Authority can comply with HUD requirements by including the required
           forms.

Comment 29 We disagree with the Authority’s assertion that the draft report incorrectly cites
           24 CFR 85.36 (b)(4) as a requirement that documentation be maintained to ensure
           duplicative services are not purchased. The report neither misstates nor
           misapplies the regulations regarding documentation. HUD required the Authority
           to maintain records sufficient to detail the significant history of its procurements
           as discussed in comment 16. The requirement does not limit the amounts of
           records to be maintained and while regulation 24 CFR 85.36(b)(4) does not
           specifically state what documentation is required, without adequate
           documentation the Authority could not support that this requirement was met.

              We corrected the typographical error related to the requirement to reflect 24 CFR
              941.205(d) rather than 24 CFR 941.204(d). In addition, while the Authority
              claims that it verified that contractors were licensed, eligible, and not debarred
              prior to contract execution, it did not provide supporting documentation. 24 CFR
              85.36(f)(2) did apply, since the Authority executed a noncompetitive contract.
              Lastly, while the executive director and board may be aware of all its contracted

                                              62
                                                
               services, adequate documentation must be maintained to allow an adequate
               review of its procurement activities.

Comment 30 Although the Authority considers the two day lapse baseless, HUD still required
           the renewal of the contract before its expiration. The Authority should ensure that
           it properly plans when it is expecting a contract to expire. Additionally, the report
           does not state a renewal is not permitted, but instead, states that a contract
           exceeding a term of five years is not permitted.

Comment 31 We removed this section from the report as to not generate any confusion as to
           what is required by Federal regulations. However, even though it is not required,
           a complete contract log should be maintained to ensure that the procurement
           history is adequately documented and to avoid a duplication of services.

Comment 32 We disagree with the Authority’s assertion that HUD has not provided any
           negative response regarding the Authority’s procurement policy as referenced in a
           2001 media article. This article was written over a decade ago and the Authority
           should regularly update its policy to ensure compliance with HUD requirements.
           In fact, the article specifically quotes HUD’s regional director for public housing
           as stating that ‘it’s the implementation of the policy that is the issue”. As stated in
           the report, the Authority’s procurement policy did not (1) establish appropriate
           controls over processes, (2) have a contract administration system to ensure that
           contractors performed according to the terms of their contracts, (3) address
           necessary steps to ensure that minority firms, women’s business enterprises and
           labor surplus firms were used when possible and (4) address processes for
           avoiding the purchase of unnecessary or duplicative items. Further the
           Authority’s procurement policy stated that it would comply with Federal
           procurement requirements. However, the Authority did not obtain adequate
           competition, obtain HUD approval, conduct adequate cost analyses, or properly
           support its disbursements in accordance with Federal requirements.

               As related to the review performed by Carr Riggs and Ingram, its review covered
               an audit of the annual financial statement and rendered opinions on the financial
               statements of the Authority and its controls over those financial statements. This
               did not include a review of the Authority's procurement policy or its controls over
               the processes to ensure compliance with procurement requirements.

Comment 33 As discussed in the report, the contracts for accounting services and legal services
           were not competitively procured. Further, the Authority could not support the
           cost reasonableness because it did not complete independent cost estimates,
           obtain adequate competition, receive HUD approval, and conduct adequate cost
           analyses.

Comment 34 We disagree that the Authority established cost reasonableness for its accounting
           and legal services contracts, as discussed in comments 10 through 18, and 20
           through 26. Therefore, we stand by our original recommendations. Although the

                                               63
                                                  
              Authority disagrees with our conclusions, we are encouraged with the Authority's
              decisions to (1) engage a consultant to review its policies and procedures and (2)
              obtain additional procurement training for the executive director.

Comment 35 The reference to a June 4, 2012, letter from independent auditors Carr, Riggs and
           Ingram regarding the financial statement audit of the Authority is a
           misinterpretation of the scope of what the independent auditors work
           encompasses. As stated in the independent auditors’ most recent audit report for
           fiscal year 2011, it conducted a financial statement audit of the Authority and did
           not express an opinion regarding the effectiveness of the Authority's internal
           control over financial reporting. Therefore, the comparison of our scope of audit
           work to that of the independent auditors is incorrect.

Comment 36 While we agree that the protection of the Authority’s tenants is important, the
           Authority still must still ensure all costs are adequately documented as required
           by 2 CFR 225(c)(1)(j) and that it is a good steward of HUD funds. The Authority
           neither completed a procurement process to show the reasonableness of costs,
           executed a contract for these services nor provided adequate supporting
           documentation showing that these services were needed. Louisiana revised statue
           40:546 does not justify the Authority’s lack of compliance with HUD
           requirements. We did not take exception to the Authority using the Jefferson
           Parish Sheriff's office to perform these off duty patrols but rather questioned the
           lack of documentation to support the payments to the officers. While the
           Authority executed a cooperative services agreement, this does not support the
           $240,635 of costs previously incurred by the Authority. We also did not perform
           a review of this new agreement. Therefore, we stand by our original conclusions.

Comment 37 Our conclusion is based upon the Authority's inability to provide documentation
           that adequately supported disbursements to the Corporation. While the
           Corporation may have its own documentation procedures, it was the responsibility
           of the Authority to maintain adequate documentation to support its disbursement
           of HUD funds. During the audit, we specifically asked the executive director to
           provide specific documentation such as an invoice, time and attendance records,
           or other documentation to show that costs were supported or that the Authority
           received a benefit from the contract. The Authority only provided a schedule of
           payments which divided the total amount of the grant into 12 payments. When
           asked, the executive director only provided the name of the primary contact
           person for the ROSS grant program and not the actual ROSS grant coordinator
           who was to be hired in accordance with the ROSS grant requirements.
           Additionally, these were services provided under a different program and funded
           by separate funds and a separate contract should have been executed under 24
           CFR 85.36.

Comment 38 Based upon a review of additional documentation provided at the exit conference
           and since the toys were funded by a private source of funds, we agree that the
           $100 is eligible and have revised the report accordingly.

                                              64
                                                
Comment 39 During the exit conference and in its written comments, the Authority admitted
           that the purchases of drinks, snacks, over the counter medications and other
           supplies were for use in the Authority's office for employees and tenants. As
           stated in the report, 2 CFR 225 Section 20 strictly prohibits the costs of goods or
           services for employees’ personal use. Further, due to possible liability issues, the
           Authority should not be administering items such as over the counter medications
           to employees or tenants.

Comment 40 We disagree with the Authority’s claim that the refrigerators were accounted for.
           Even with the additional documentation, the Authority still could not account for
           the refrigerators. In addition to 2 CFR 225 (c)(1)(j), Federal regulation 24 CFR
           85.20 required the Authority to maintain (1) effective control and accountability
           over its real and personal property and (2) records that adequately identify the
           application and use of funds. During the exit conference, the Authority claimed
           that the refrigerators only lasted three years and were subsequently disposed. The
           refrigerators were purchased July 16, 2009, and according to the new
           documentation provided during the exit conference, all were installed between
           August 17 and September 15, 2009. However, according to documentation
           provided during our previous Recovery Act audit,43 all were replaced with new
           refrigerators purchased with Recovery Act funds within 6 ½ to 8 months and not
           after 3 years, as shown below:

                         Address             Date of Work          Replacement Date        Time Lapse
                                           Order/Completion
                     1600 Betty Street      August 21, 2009         March 31, 2010       7 months 10 days
                      1730 Julie Street     August 21, 2009         April 20, 2010        8 months 1 day
                     1905 Betty Street      August 24, 2009         March 31, 2010        7 months 6 days
                     6505 Second Zion       August 24, 2009         April 13, 2010       7 months 20 days
                      6509 Dale Street     September 9, 2009        March 24, 2010       6 months 15 days
                     1612 Betty Street     September 15, 2009       April 27, 2010       7 months 12 days

                    The executive director also stated during the previous audit that the refrigerators
                    were donated instead of disposed. Meaning, the Authority has continued to
                    provide conflicting information and documentation. Therefore, we stand by our
                    original conclusions.

Comment 41 Although the Authority asserted that the audit is misleading in listing the various
           meal expenses reviewed as entertainment costs, we disagree. The Authority has
           more than enough space to accommodate the 2 to 4 persons that the executive
           director claimed to have working lunches with, as we have conducted meetings
           with the executive director in his office with up to 7 persons. In addition,
           Authority business discussed with board members should have been discussed
           during regular board meetings with all board members. Further, the meal
           purchases were in excess of $75 and we could not verify that any alcohol or
           excessive items were not purchased or that the meetings involved more than one

43
     2011-AO-1007

                                                     65
                                                        
              person, as the executive director did not provide the itemized receipts. Since the
              executive director could not show otherwise, these were considered prohibited
              costs and we stand by our original conclusions.

Comment 42 We are encouraged by the Authority’s promise to ensure more vigilance in the
           future to avoid ineligible finance charges.

Comment 43 We did not question the reasonableness of the expenditures. However, the
           Authority still did not provide adequate supporting documentation for the costs.

Comment 44 The Authority claimed that the audit’s assessment of the Authority’s accounting
           policy and internal controls are subjective since an outside auditor has confirmed
           that the Authority’s controls are proper. We disagree. All information presented
           in the report is supported by facts, the application of laws and regulations, and
           documentation provided by the Authority during the course of the audit. While
           the Authority may have a $3.6 million budget, we only reviewed a little over $1
           million of those funds and more than 46 percent is questioned throughout the
           report. Effective internal control is essential to provide reasonable assurance
           regarding the achievement of the Authority’s mission, goals, and objectives. As
           noted in the report, our review determined the Authority's accounting policy and
           related procedures were not adequate and the Authority lacked proper internal
           controls. Again, the review performed by Carr Riggs and Ingram covered an
           audit of the annual financial statement and rendered opinions on the financial
           statements of the Authority and its controls over those financial statements. This
           did not include a review of the Authority's accounting policy or its controls over
           the processes to ensure compliance with expenditure requirements.

Comment 45 The Authority claimed that the audit’s findings regarding their internal controls
           and the reference to a prior audit which noted a lack of internal control are
           erroneous and has no bearing on the current period audited. We disagree. Based
           on our assessment of the Authority's internal controls which included a review of
           the Authority's policies and interviews with the Authority staff, controls were
           inadequate and the executive director was the contracting officer, executed
           contracts, reviewed invoices, approved disbursements and signed disbursement
           checks. Separation of duties is an essential component to maintaining adequate
           internal controls. The Board is responsible for ensuring that the Authority has
           adequate controls to detect and prevent conflicts of interest, fraud and abuse. The
           executive director is responsible for maintaining adequate controls over the
           Authority's disbursement process which should include adequate segregation of
           duties. In addition, during our previous audit, we determined that the executive
           director maintained a signature stamp of the board chairman which he used to
           sign checks for disbursement. The executive subsequently returned the stamp, but
           the period during which he maintained control over the stamp, was within our
           audit period. Further, 2 CFR 225 requires the Authority to maintain adequate
           documentation for their expenditures which includes documentation that the
           Authority received items purchased prior to authorizing payment of an invoice.

                                               66
                                                 
              24 CFR 85.20 also requires that effective control and accountability be
              maintained over all Authority assets. As shown in the report, the Authority did
              not meet these guidelines.

Comment 46 The Authority asserted that it already provided a box of documents fully
           supporting the security patrols. We disagree, based on comment 36. The security
           detail reports which included monthly data with the number of traffic stops made
           and the number of individuals arrested provided by the Authority during the exit
           conference were already reviewed during the audit and not adequate to support
           the costs. As stated in the report while the Authority was able to provide security
           detail reports that included sign in sheets with the date, name of the officer and
           time or hours worked, it did not include documentation showing what areas the
           deputies patrolled and whether the patrols were during times of increased criminal
           activity at the Authority’s developments. Therefore, we stand by our original
           recommendation.

Comment 47 During the exit conference, the Authority provided a copy of a new cooperative
           services agreement with the Jefferson Parish Sheriff’s office. We recognize the
           Authority’s proactive effort in executing a contract with the Jefferson Parish
           Sheriff’s office; however, we did not perform a review to determine the adequacy
           or reasonableness of the contract since the contract was executed April 19, 2012,
           and it does not support the $240,635 of unsupported costs previously incurred by
           the Authority. The Authority should provide its final supporting documentation
           to HUD's staff, which will assist the Authority with resolving recommendation
           2B.

Comment 48 The Authority asserted that the payments to the Corporation are fully supported.
           We disagree, based upon comment 37. Therefore, we stand by our original
           recommendation.

Comment 49 As discussed in comment 43, we disagree that the Authority supported all of its
           credit card purchases. Therefore, we stand by our original recommendation.

Comment 50 We have reduced the recommendation by the $100 based upon the additional
           documentation provided by the Authority during the exit conference. However,
           the remaining costs are still ineligible, as discussed in comments 39 through 42;
           therefore, we stand by the revised recommendation.

Comment 51 The Authority claimed that it only used funds on eligible items and that its
           accounting procedures and internal controls are adequate. We disagree, based
           upon comments 33, 44, and 45. Therefore, we stand by our original
           recommendation.

Comment 52 The Authority ascertained that the executive director exercised appropriate
           oversight over the Authority’s disbursements and all the expenses were for the
           Authority’s benefit. We disagree. The audit report contains significant evidence

                                              67
                                                
              that the executive director failed to provide adequate oversight over the
              disbursement of HUD funds. As a result of the Authority not complying with
              Federal requirements, it could not ensure that funds fully benefited program
              participants. It is proper and within the scope of the OIG’s purview to
              recommend that HUD take appropriate action to correct the deficiencies and
              improve operations at the Authority. Therefore, we stand by our original
              recommendation.

Comment 53 We disagree with the Authority’s claim that the owner of Diversified Ventures
           LLC exercised no responsibility in his official capacity as a State representative
           with respect to the Authority. The Louisiana State representative represented the
           district in which the Authority is located and therefore exercised functions and
           responsibility with respect to the Authority. As such, the Authority created a
           conflict of interest when it paid the company for services. Additionally,
           Diversified Ventures may have submitted a lower cost bid, but this is irrelevant
           since Federal regulations prohibited conflicts of interest. Therefore, we stand by
           our original conclusions.

Comment 54 We disagree with the Authority’s assertion that the services for various repairs
           were properly procured and that it did not engage in bid splitting. As discussed in
           the report, the Authority did not follow the proper procedures for obtaining the
           services, engaged in bid splitting, and should have competitively procured a
           contract. During the exit conference, the executive director admitted that the
           Authority staff performed an assessment of the damage from Hurricane Gustav
           and knew how many units needed repairs, as this was needed for the Authority’s
           insurance claim. Therefore, there would be no reason to piecemeal the repairs
           and pay Diversified Ventures on a per job basis. In addition, Diversified Ventures
           did not submit its first invoice until more than 120 days after Hurricane Gustav.
           Meaning, the Authority had enough information and time to properly procure for
           the services. This was also reiterated to the Authority by HUD at the exit
           conference. In addition, while the Authority claims that the board was aware of
           these services, it was not documented in any of the board minutes. Further, if the
           Authority was not engaging in bid splitting, invoices that were processed for
           payment on the same date, should have been lumped into one check instead
           several checks (See Appendix C).

Comment 55 We disagree with the Authority’s claim that it raised its procurement threshold at
           the suggestion of HUD since the Authority was unable to provide any
           documentation to substantiate this claim. In fact, the Authority admitted that it
           raised the threshold to cure the bid splitting issue. On February 7, 2012, we
           provided the Authority with a document discussing issues identified during our
           review, which included the bid splitting. At the February 9, 2012, update
           meeting, the Authority stated that the board held a meeting on February 8, 2012,
           where it raised the small purchase threshold from $20,000 to $100,000 and that
           the bid splitting should no longer be an issue. In addition, the Authority did not



                                             68
                                                
              provide any documentation showing where HUD suggested that it raise its small
              purchase threshold. Therefore, we stand by our original conclusions.

Comment 56 We agree with the Authority’s conclusion that it was subject to Louisiana Public
           bid law which sets the small purchase threshold at $150,000 for public works type
           contracts. We have revised the report and removed recommendation 4D.

Comment 57 As discussed in comment 53, we disagree with the Authority’s claim that there
           was no conflict of interest with Diversified Ventures LLC; therefore, we stand by
           our original recommendation.

Comment 58 We disagree with the Authority that it maintained proper internal controls as
           attested to by its independent auditor. We do recognize the Authority for taking
           initiative to engage a consultant to review its policies. However, as discussed in
           the report, we stand by our original conclusions and recommendations.

Comment 59 We disagree with the Authority’s claims that it maintained proper internal
           controls and that there was no bid splitting regarding the various repair work
           performed. We do recognize the Authority for taking initiative to engage a
           consultant to review its procedures for procuring goods and services in emergency
           situations. However, as discussed in the report and in comment 54, we stand by
           our original conclusions and recommendations.

Comment 60 The Authority claimed that all of its Federal funds were properly disbursed and
           that there is no cause for our recommendations of administrative sanctions or
           debarment of the executive director. We disagree. The audit report contains
           significant evidence that the executive director did not provide adequate oversight
           over the disbursement of HUD funds by engaging in bid splitting, creating a
           conflict of interest by executing contracts with a State legislator and violating
           HUD procurement regulations. The Authority’s lack of knowledge of HUD rules
           prohibiting conflicts of interest and bid splitting prohibited the Authority from
           ensuring that funds fully benefited program participants. It is proper and within
           the scope of the OIG’s purview to recommend that HUD take appropriate action
           to correct the deficiencies and improve operations at the Authority. Therefore, we
           stand by our original recommendation.




                                              69
                                                
Appendix C

  SUMMARY OF PAYMENTS TO DIVERSIFIED VENTURES




                                   Roof repairs
             Count   Date of disbursement       Amount      Total
               1        January 9, 2009           $8,823
               2       January 14, 2009           15,498
               3       January 14, 2009            6,310
               4       January 21, 2009           18,103
               5       January 21, 2009            4,665
               6       January 28, 2009            5,374
               7       January 28, 2009            3,450
                                                             $62,223

                             Cleanup and restoration
         Count       Date of disbursement      Amount       Total
           1            August 7, 2009                $75
           2            August 7, 2009              1,700
           3            August 7, 2009                750
           4            August 7, 2009                500
           5            August 7, 2009                450
           6            August 7, 2009                450
           7            August 7, 2009                425
           8            August 7, 2009                400
           9            August 7, 2009                350
          10            August 7, 2009                350
          11            August 7, 2009                350
          12            August 7, 2009                300
          13            August 7, 2009                200
          14            August 7, 2009                200
          15            August 7, 2009                175
          16            August 7, 2009                100
          17           August 14, 2009              1,250
          18           August 14, 2009                975
          19           August 14, 2009                650
          20           August 14, 2009                650
          21           August 14, 2009                650
          22           August 14, 2009                550
          23           August 14, 2009                550



                                       70
                                         
             Cleanup and restoration (continued)
Count      Date of disbursement     Amount         Total
 24          August 14, 2009              $550
 25          August 14, 2009                475
 26          August 14, 2009                450
 27          August 14, 2009                350
 28          August 14, 2009                350
 29          August 14, 2009                350
 30          August 14, 2009                350
 31          August 14, 2009                300
 32          August 14, 2009                300
 33          August 14, 2009                300
 34          August 14, 2009                225
 35          August 14, 2009                150
 36          August 14, 2009             1,520
 37         September 16, 2009              300
 38         September 16, 2009              300
 39         September 16, 2009              300
 40         September 16, 2009              300
 41         September 16, 2009              300
 42         September 16, 2009              300
 43         September 16, 2009              300
 44         September 16, 2009              300
 45         September 16, 2009              300
 46         September 16, 2009              300
                                                    $20,720

                    Interior wall repairs
 Count             Date              Amount        Total
   1          August 27, 2009             1,400
   2          August 27, 2009             1,400
   3          August 27, 2009             1,300
   4         September 1,2009             1,825
   5         September 2, 2009            1,575
   6         September 2, 2009              175
   7         September 2, 2009              175
   8         September 2, 2009              175
 Total                                               $8,025

                        Miscellaneous
  Count            Date               Amount          Total
    1           May 21, 2009            $250
                                                      $250
Total payments for all services                    $91,218




                                  71
                                    
Appendix D

                               SUMMARY OF QUESTIONED COSTS


        Check              Total            Unsupported         Ineligible       Percentage            Description
        number-            payment                                               ineligible
        payee                                                                    (ineligible +
                                                                                 unsupported
                                                                                 amount/total
                                                                                 payment)
        15487                  $312              $147                $65            36 percent         No documentation of meeting
        Wal-Mart                                                                                       ($147); personal use items -
                                                                                                       coffee, bottled water, soft drinks
                                                                                                       ($65).
        14835                  $299              $299                $0            100 percent         No documentation ($299)
        Wal-Mart
        14552                  $157                $0                $93            59 percent         Personal use items - snacks,
        Wal-Mart                                                                                       coffee supplies, soft drinks ($93)
        14686                  $384                $0               $283            74 percent         Personal use items - snacks,
        Wal-Mart                                                                                       coffee supplies, medicine, soft
                                                                                                       drinks ($283)
        14260                  $303                $0               $280            92 percent         Personal use items - office
        Wal-Mart                                                                                       snacks, coffee supplies, water,
                                                                                                       energy drinks, soft drinks ($280)
        14479                  $684              $223               $147            54 percent         No documentation for balance
        Capital One                                                                                    transfer ($223); restaurant
                                                                                                       expenses on 2 occasions ($147)
        15187                 $1,184            $1,184               $0            100 percent         Payments for cellular phone and
        Capital One                                                                                    hotel expenses ($1,184)
        14935                 $1,113               $0               $248            22 percent         Restaurant expenses on 2
        Capital One                                                                                    occasions ($248)
        14623                  $876               $60               $390            51 percent         No documentation for purchase
        Capital One                                                                                    of caulking ($60); restaurant
                                                                                                       expenses on 5 occasions ($389);
                                                                                                       finance charge ($1)
        14268                  $481                $0               $394            82 percent         Restaurant expenses on 5
        Capital One                                                                                    occasions ($389); finance
                                                                                                       charges ($5)
        15062                 $5,386               $0              $2,190           40 percent         Refrigerators unaccounted for
        Lowe’s
        Totals              $11,17944           $1,913             $4,090




44
     The remaining $5,176 ($11,179 - $1,913 - $4,090 = $5,176) paid to these vendors was eligible and supported.



                                                                        72
                                                                            
Appendix E

                SUMMARY OF BOARD MEMBER PAYMENTS



                               Funding Sources Used For Board Member Payments
         Fiscal Year                      Dates                         Source of Funds
            2007               October 2006-September 2007                  Section 8
            2008               October 2007-September2008                   Section 8
            2009               October 2008-September 2009                  Section 8
            2010               October 2009-September 2010          Section 8 and/or Disaster
            2011                October 2010-February 2011  Disaster, Section 8, and/or Disaster- Non
                                                                             Federal
              2011              March 2011-September 2011   Section 8 Administrative Reserve Funds


                                        Board Member Payments
           Count          Board Member Position  Dates of Service on Board                                 Amount
                                                                                                              Paid
               1         Vice Chairman                         October 2008-May 2009                        $6,448
               2         Board Member                          October 2008-June 2009                       $3,150
               3         Board Member                          October 2008-August 2010                      $6,000
               4         Chairman                              October 2008-September 2011                 $14,483
               5         Board Member                          October 2008- September 2011                $11,225
               6         Board Member                          October 2008-December 2010                   $4,275
               7         Board Member                          October 2008- September 2011                 $6,675
               8         Board Member                          October 2008-November 2008                   $2,250
               9         Vice Chairman                         May 2009-August 2011                         $12,150
              10         Board Member                          November 2008- September 2011                 $4,600
              11         Board Member                          April 2009- September 2011                   $3,225
              12         Board Member                          August 2010- September 2011                   $2,175
              13         Vice Chairman                         September 2011- September 2011                $2,925
              14         Board Member                          July 2011- September 2011                      $300
              15         Board Member                          August 2011- September 2011                   $5,775
              16         Board Member                          October 2006-September 2007                  $1,950
                         N/A                                   Fiscal Year 200845                           $19,200
                         TOTAL                                                                             $106,806




45
  We were unable to obtain the names of the Board members who received payments during this fiscal year.



                                                                  73
                                                                     
